A.

NORTON ROSE FULBRIGHT

February 24, 2020
Norton Rose Fulbright US LLP
799 9th Street NW
Suite 1000
Washington, DC 20001-4501
United States

By Hand Delivery

Scott S. Harris
Clerk of the Court
United States Supreme Court
One First Street, N.E.
Washington , D.C. 20543

Re:

Direct line +1 202 662 0466
jonathan.franklin@nortonrosefulbright.com
Tel +1 202 662 0200
Fax +1 202 662 4643
nortonrosefulbright.com

Geophysical Service, Inc. v. TGS-NOPEC Geophysical Co., No. 19-873

Dear Mr. Harris:
I represent the respondent, TGS-NOPEC Geophysical Co., in the above-referenced case.
Pursuant to Supreme Court Rule 30.4, respondent respectfully requests a 30-day extension of
time within which to file its response to the petition for certiorari. The response is currently due
March 20, 2020, and the extension is requested until April 20, 2020. The extension is sought in
light of previously scheduled deadlines and other commitments and the need for additional time
to review the record , research the issues, and coordinate with the client.
Counsel for petitioner has stated that petitioner does not oppose the requested extension.
Thank you in advance for your attention to this matter, and please do not hesitate to
contact me with any questions.

,~
athan S. Franklin
Counsel for Respondent
cc: Don Cruse, Counsel for Petitioner (by E-mail and first class mail)

\
Norton Rose Fulbright US LLP is a limited liability partnership registered under the laws of Texas.
Norton Rose Fulbright US LLP, Norton Rose Fulbright LLP, Norton Rose Fulbright Australia, Norton Rose Fulbright Canada LLP and Norton Rose
Fulbright South Africa Inc are separate legal entities and all of them are members of Norton Rose Fulbright Verein, a Swiss verein. Norton Rose Fulbright
Verein helps coordinate the activities of the members but does not itself provide legal services to clients. Details of each entity, with certain regulatory
information, are available at nortonrosefulbright.com.

